CASE NO. 20-816

IN THE SUPREME COURT OF THE UNITED STATES

In Re:
CORECO JA’QAN PEARSON, VIKKI TOWNSEND CONSIGLIO,
GLORIA KAY GODWIN, JAMES KENNETH CARROLL, JASON M
SHEPHERD on behalf of the COBB COUNTY REPUBLICAN PARTY,
and BRIAN JAY VAN GUNDY
Petitioners,
v.
STATE OF GEORGIA, BRIAN KEMP, in his official capacity as
Governor of Georgia, BRAD RAFFENSPERGER, in his official capacity
as Secretary of State and Chair of the Georgia State Election Board,
DAVID J. WORLEY, in his official capacity as a member of the Georgia
State Election Board, REBECCA N. SULLIVAN, in her official capacity
as a member of the Georgia State Election Board, MATTHEW
MASHBURN, in his official capacity as a member of the Georgia State
Election Board, and ANH LE, in her official capacity as a member of the
Georgia State Election Board,
Respondents.

PETITIONERS’ NOTICE OF SUPPLEMENTAL AUTHORITY
SIDNEY POWELL
Counsel of Record
Texas Bar No. 16209700
Sidney Powell, P.C.

2911 Turtle Creek Blvd., Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Of Counsel
JULIA Z. HALLER
BRANDON JOHNSON
EMILY P. NEWMAN
Howard Kleinhendler
HOWARD KLEINHENDLER
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
HARRY W. MACDOUGALD
Georgia Bar No. 463076
Caldwell, Propst & DeLoach, LLP
Two Ravinia Drive, Ste 1600
Atlanta, Georgia 30346
(404) 843-1956
hmacdougald@cpdlawyers.com
L. LIN WOOD
Georgia Bar No. 774588
L. LIN WOOD, P.C.
P.O. Box 52584
Atlanta, GA 30305-0584
(404) 891-1402

ii

CORPORATE DISCLOSURE STATEMENT
There are no corporations involved in this case.

iii

TABLE OF CONTENTS
Table of Authorities ....................................................................................................... v
Facts ............................................................................................................................... 1
Argument and Citation of Authority ............................................................................ 7
Conclusion .................................................................................................................... 11

iv

TABLE OF AUTHORITIES
Cases
Bush v. Gore, 531 U.S. 98 (2000) .................................................................................... 9
Curling v. Raffensperger, 2020 WL 5994029 (N.D. Ga. 10/11/20) ................................ 5
Jefferson v. Dane County, WI, Case No. 2020AP557-OA (Dec. 14, 2020) .................... 6
Los Angeles Cty. v. Davis, 440 U.S. 625 (1979) ........................................................... 10
McPherson v. Blacker, 146 U.S. 1 (1892) ................................................................... 7, 9
Trump et al. v. Biden, et al., Case No. 2020AP2038 (Dec. 14, 2020) ............................ 6
Statutes
3 U.S.C. § 15 .............................................................................................................. 9, 10
3 U.S.C.§ 1 – 21 ............................................................................................................... 9
42 U.S.C. § 1988 .............................................................................................................. 9
42 U.S.C.§ 1983 ............................................................................................................... 9
Constitutional Provisions
12th Amendment, U.S. Constitution ....................................................................... 9, 10
U.S. Const. Art II, § 1, cl. 2............................................................................................. 3

v

Pursuant to Rule 18.10, Petitioners1 submit this Notice of Supplemental
Authority to advise the Court of the following:
FACTS
1. On December 11, 2020, Petitioners filed an Emergency Petition Under
Rule 20 for an Extraordinary Writ of Mandamus (“Petition”) with respect to the
Presidential Election in Georgia, which has direct implications for the outcome of
the election nationwide.
2. On December 12, 2020, a related Emergency Petition Under Rule 20 for an
Extraordinary Writ was filed in this Court arising from Arizona, being known as
Bowyer et al., v. Ducey, et al.
3. On December 11, a related Emergency Petition Under Rule 20 for an
Extraordinary Writ arising from Michigan, being known as King v. Whitmer.
4. On December 12, 2020 a related Emergency Petition Under Rule 20 for an
Extraordinary Writ was filed in this Court arising from Wisconsin, being known as
Feehan et al. v. Wisconsin Elections Commission, et al.2
5. There are 53 total electoral college votes at issue in these related cases (the
“Related Cases”), enough to change the outcome of the presidential election.

The Petitioners are Coreco Ja’qan Pearson, Vikki Townsend Consiglio, Gloria Kay Godwin, James
Kenneth Carroll, Carolyn Hall Fisher, Jason M Shepherd on behalf of the Cobb County Republican
Party, and Brian Jay Van Gundy. Carolyn Hall Fisher was inadvertently omitted from the listed
plaintiffs in the style of this case as submitted to this Court.
2 A similar Notice of Supplemental Authority is being filed in each of these four cases.
1

6. On December 14, 2020, the Georgia Republican slate of Presidential
Electors, including Petitioner Electors, met at the State Capital and cast their votes
for President Donald J. Trump and Vice President Michael R. Pence.3
7. On December 14, 2020, the Wisconsin Republican slate of Presidential
Electors, including Petitioner Elector, met at the State Capital and cast their votes
for President Donald J. Trump and Vice President Michael R. Pence.4
8. On December 14, 2020, the Arizona Republican slate of Presidential
Electors, all of whom are Petitioners, met at the State Capital and cast their votes
for President Donald J. Trump and Vice President Michael R. Pence.5
9. On December 14, 2020, the Michigan Republican slate of Presidential
Electors, including Petitioner Electors, attempted to meet and cast their votes for
President Donald J. Trump and Vice President Michael R. Pence but were denied
entry to the State Capital by law enforcement. Their tender of their votes was
refused.6 They instead met on the grounds of the State Capital and cast their votes
for President Donald J. Trump and Vice President Michael R. Pence.
10. As a result of the foregoing, there are now competing slates of electors
from the four states at issue in the Related Cases listed above, (as well from
Nevada, New Mexico and Pennsylvania). These Republican slates of electors have

See https://www.foxnews.com/politics/republican-electors-pennsylvania-georgia-vote-for-trump, last
visited December 14, 2020.
4 See https://www.nbc15.com/2020/12/14/wisconsin-gop-electors-meet-to-cast-their-own-votes-too-justin-case/ last visited December 14, 2020.
5 See https://www.theepochtimes.com/pennsylvania-georgia-nevada-and-arizona-republican-electorscast-votes-for-trump_3618147.html, last visited December 14, 2020.
6 See https://thepalmierireport.com/michigan-state-police-block-gop-electors-from-entering-capitol/
last visited December 14, 2020.
3

2

received the endorsement of the Republican-majority legislatures in each of these
States, as reflected the decision for them to cast (or attempting to cast) their slate of
electoral votes, as an electoral body, for President Donald J. Trump in the
respective State Houses at the time and place as set forth under applicable State
law, The Electoral Count Act, and the authority delegated under the U.S.
Constitution’s Electors Clause. U.S. Const. Art II, § 1, cl. 2.
11. In Michigan, a preliminary report, conducted by Russell James
Ramsland, Jr. of Allied Security Operations Group, LLC (“ASOG”), summarizing
the results of ASOG’s court-ordered forensic audit of Dominion Voting Systems
equipment used in Antrim County, Michigan, was released on December 14, 2020. A
copy of this report is attached hereto as Exhibit A. The report delivers the following
preliminary conclusion:
We conclude that the Dominion Voting System is intentionally and
purposefully designed with inherent errors to create systemic fraud and
influence election results. The system intentionally generates an
enormously high number of ballot errors. The electronic ballots are then
transferred for adjudication. The intentional errors lead to bulk
adjudication of ballots with no oversight, no transparency, and no audit
trail. This leads to voter or election fraud. Based on our study, we
conclude that The Dominion Voting System should not be used in
Michigan. We further conclude that the results of Antrim County
should not have been certified.
Exh. A, ¶ B(2), p. 1. This Interim Report finds that the Dominion software was
updated between the November 3, 2020 election and the subsequent recounts and
that the updated software inexplicably produced wildly different results from the
election day version. Id. at ¶ B(3), p. 2.

3

12. The Interim Report finds that the ballot adjudication process is a major
avenue for election fraud on the Dominion system. Further, it finds that the
adjudication log entries are missing from the system – evidence of tampering,
destruction of evidence and a violation of state law. “[T]heir conspicuous absence is
extremely suspicious since the files exist for previous years using the same
software.” Id. at ¶ B(15), p. 3.
13. The Interim Report finds that “all server security logs prior to 11:03 pm
on November 4, 2020 are missing.” Id. at ¶ B(16), p. 4. Even in the best light, this is
extremely alarming and suspicious.
14. The Interim Report finds that “On November 21, 2020, an unauthorized
user unsuccessfully attempted to zero out election results.” Id. at ¶ B(17), p. 4.
15. The Interim Report shows multiple grave problems with the accuracy and
vulnerability to hacking and evidence destruction of the Dominion Voting Systems
(“Dominion”) machines used in Antrim County, Michigan. The report is relevant to
each of the Related Cases because each of the states in question uses Dominion
equipment. The Interim Report vindicates the lengthy opinion and order of Judge
Amy Totenberg in Curling v. Raffensperger, 2020 WL 5994029 (N.D. Ga. 10/11/20),
which found “extreme” and unacceptable security risks in the Dominion system.
Compelling evidence and expert analyses show convincingly that the results of the
Dominion system cannot be trusted and should not have been certified.
16. The findings in the Interim Report are consistent with the expert
testimony provided by Mr. Ramsland regarding Dominion’s vote manipulation in

4

the Petitioners’ November 25, 2020 complaint filed in the U.S. District Court for the
Northern District of Georgia (the “District Court”) (R 450; 2438), and with his
testimony in the Related Cases. Mr. Ramsland concluded in the Georgia case that,
for the State of Georgia, “at least 96,000 mail-in ballots were fraudulently cast,” and
“136,098 ballots were illegally counted as result of improper manipulation of the
Dominion software,” id., each of which is several times larger than former VicePresident Biden’s margin of victory in Georgia (10,457 votes). Similar anomalies
exist in the Related Cases. Among other things, the Complaints in the trial courts
and the Petitions to this Court in each of the Related Cases all seek prospective
injunctive relief requiring a similar forensic audit of Dominion voting machines.
17. The Coffee County, Georgia Board of Registration and Elections refused
to certify the machine recount election returns on their Dominion systems “given its
inability to repeatably duplicate creditable election results.”7 The results of the
machine recount report were internally inconsistent and could not be reconciled and
were inconsistent with both the election night count and the hand audit.8 The
Coffee County BRE analysis confirms the findings of the Interim Report, cited
above, that ballots going to adjudication can be changed on a wholesale basis by the
operator with no oversight, controls or accountability, an extremely serious
vulnerability.

See https://www.walb.com/2020/12/08/letter-coffee-co-cannot-certify-results-second-statewiderecount/, last visited December 15, 2020.
8 See https://voterga.files.wordpress.com/2020/12/coffee-county-complete.pdf, last visited December
15, 2020.
7

5

18. On December 14, 2020, the Wisconsin Supreme Court decided two related
cases involving Wisconsin’s absentee ballot procedures. In Jefferson v. Dane County,
WI, Case No. 2020AP557-OA (Dec. 14, 2020),9 the Wisconsin Supreme Court held
that the policy announced by Dane County and the Governor that everyone in
Wisconsin was considered “indefinitely confined” and are therefore not required to
show a photo ID to vote an absentee ballot was unlawful under the Wisconsin
Election Code. Slip Op. at ¶¶ 39-40. In Trump et al. v. Biden, et al., Case No.
2020AP2038 (Dec. 14, 2020)10. The Court rejected a claim to invalidate all
“indefinitely confined” absentee ballots in Dane and Milwaukee Counties in part
because there was no showing of individual ineligibility for indefinitely confined
status.
19. In the related Wisconsin Petition, Feehan et al. v. Wisconsin Elections
Commission, et al., Petitioners presented expert testimony that 213,215 Wisconsin
voters claimed “indefinitely confined” status, but that 45.23% of this number, or
96,435 were not actually indefinitely confined. The finding was based on research of
a sample of this populations’ social media postings for “photos, images or other
information demonstrating that the individuals were not indefinitely confined,”
such as a picture of them riding a bike. See R 509, 517-518 in Feehan v. Wisconsin
Elections Commission.

9

https://www.wicourts.gov/sc/opinion/DisplayDocument.pdf?content=pdf&seqNo=315283.
https://www.wicourts.gov/sc/opinion/DisplayDocument.pdf?content=pdf&seqNo=315395.

10

6

ARGUMENT AND CITATION OF AUTHORITY
On December 14, 2020, the Republican majority State legislatures of Arizona,
Georgia, Michigan and Wisconsin exercised their plenary authority under the U.S.
Constitution’s Electors Clause by permitting the full slate of Republican nominees
to cast their electoral votes for President Donald J. Trump on a contingent basis.
The “power and jurisdiction of the state [legislature]” to select electors “is
exclusive,” McPherson v. Blacker, 146 U.S. 1, 11 (1892). This power “cannot be
taken from them or modified” by statute or even the state constitution,” and “there
is no doubt of the right of the legislature to resume the power at any time.” Id. at 10
(citations omitted). The state legislature may delegate authority to the state’s
executive and judicial branches to conduct elections, or to interpret and implement
election laws. But where, as here, these branches have abused their authority to
make non-legislative changes to the law, eliminating voter fraud safeguards,
enabling and facilitating fraud, and then covering up that electoral fraud by
preventing any state law enforcement or executive agency investigations and
consistently dismissing private lawsuits, then the state legislatures may resume its
exclusive and plenary authority under the Electors Clause to directly select the
Presidential Electors. While the Georgia Legislature did not go so far as to formally
withdraw or nullify this delegation of authority on December 14, 2020, its
endorsement of the contingent slate of Republican electors preserved its right to do
so at the time and in the manner of its choosing.
The emergence on December 14, 2020 of contested and contingent slates of
electors from multiple states is significant to the legal position of the Presidential

7

Elector Petitioners regarding standing and other grounds for dismissal cited by the
District Court and warrants this Notice of Supplemental Authority. In addition, the
new evidence presented confirms extremely serious problems with Dominion’s
voting equipment also warrants notice to the Court.
In light of these developments, any argument that the Presidential Elector
Petitioners in the Related Cases lack standing must be rejected, if they were not
rejected before. But for the alleged wrongful conduct of the executive branch
respondents under color of law, these Presidential Elector plaintiffs would have
been certified as the presidential electors of their respective states and would have
cast their votes for Donald J. Trump and Michael R. Pence. Respondents’ unlawful
certification of an election irredeemably tainted by fraud (which Respondents
facilitated and enabled and now attempt to cover up) has resulted in a unique
injury that only Petitioners Presidential Electors could suffer, namely, having a
competing slate of electors take their place and their votes in the Electoral College.
Petitioners have a particularized, concrete injury that is directly traceable to the
challenged conduct of the various respondents. The injury is redressable by the
Court in the exercise of its equitable powers and authority under the All Writs Act
because they have cast their votes as contingent electors.
Any contention that the federal courts lack subject matter jurisdiction over
these controversies is likewise without merit. The events of December 14, 2014
giving rise to competing slates of electors for the State of Georgia – one endorsed by
the State Legislature and one by the Respondent State executives – creates a new

8

and very live “case or controversy” under Article III of the U.S. Constitution. Apart
from the federal constitutional rights that were violated in the election conducted by
the Respondents, and the right to seek relief under 42 U.S.C.§ 1983 and § 1988, the
contingent slates of electors from the four states necessarily implicate the 12th
Amendment to the U.S. Constitution, and the Electoral Count Act of 1887, codified
at 3 U.S.C.§ 1 – 21. A more quintessentially federal question than which slate of
electors will be counted under the 12th Amendment and 3 U.S.C. § 15 to elect the
President and Vice President can scarcely be imagined. These matters are far
outside the subject matter jurisdiction of state courts under local election contest
statutes. It is a case or controversy presenting federal questions that must be
squarely faced by the federal court system.
Similarly, the federal and constitutional nature of these controversies
deprives abstention doctrines of any relevance whatsoever. First, state laws for the
appointment of presidential electors are federalized by the operation of The
Electoral Count Act of 1887. McPherson v. Blacker, 146 U.S. 1, 27 (1892); Bush v.
Gore, 531 U.S. 98, 113 (2000) (Rehnquist, C.J., concurring) (“A significant departure
from the legislative scheme for appointing Presidential electors presents a federal
constitutional question.”).
Second, once contested or contingent slates of electors become involved, there
is no question of state law determination from which to abstain. It is a pure
question of federal and constitutional law which slate shall be counted. Moreover,
Petitioners have requested declaratory relief, both from the District Court and this

9

Court, finding that the Respondents’ actions in certifying the results of a fraudulent
election is unconstitutional, as is the casting of the State of Georgia’s electoral votes
based on the outcome of an unconstitutional election certification. Only a federal
court can provide the requested declaratory relief.
The equitable doctrine of laches can have no application to the issues
presented by the emergence on December 14, 2020 of contingent slates of electors
sufficient to change the outcome of the national election. The schedule and
mechanisms for resolving contested slates of electors provided by The Electoral
Count Act of 1887 and potential for invocation of the 12th Amendment’s electoral
count dispute resolution procedures did not come into play until the state
legislatures appointed competing slates of electors. Laches cannot bar claims and
rights coming into being on December 14, 2020.
Nor can any mootness defense be entertained when the tally of electors under
3 U.S.C. § 15 does not take place until January 6, 2020. A respondent cannot moot a
claim for prospective injunctive relief by performing the very act against which the
injunction was sought. To the contrary, a “case is moot when the issues presented
are no longer ‘live’ or the parties lack a legally cognizable interest in the outcome.”
Los Angeles Cty. v. Davis, 440 U.S. 625, 631 (1979). This can occur when “it can be
said with assurance that “there is no reasonable expectation . . .” that the alleged
violation will recur,” or when “interim relief or events have completely and
irrevocably eradicated the effects of the alleged violation.” Id. Here, the opposite has
occurred – the controversy has become all the more urgent.

10

The Interim Report of the forensic examination of the machines in Antrim
County, Michigan has bolstered Petitioners’ claims for relief in the Related Cases. If
the results of the Dominion system cannot be trusted, neither can the appointment
of the Biden electors in Georgia, Arizona, Michigan and Wisconsin, or any
jurisdiction using Dominion systems. The further investigations sought by the
Petitioners – which include similar forensic examinations in the other states – may
also have profound importance to the both the availability of the injunctive relief
sought by Petitioners in this and the Related Cases and to the determinations to be
made by members of the House and Senate on January 6, 2020. The statistical
impossibility of the results in these four states according to the expert analyses
proffered by the Petitioners in the Related Cases is highly probative of fraud or
irregularity and provides compelling justification for further investigation and for
the equitable and extraordinary relief sought in these Petitions.
CONCLUSION
In an earlier generation, Mr. Dooley remarked that the Court follows the
election returns. Were it to do so now, the Court would first have to decide whether
it could trust the returns. Allowing a fraudulent result to be enforced would
threaten the legitimacy of two branches of the federal government, not just one. The
Court is called to its duty by the ghosts entombed on the other side of the Potomac
River. Fiat justitia ruat caelum.
Respectfully submitted,
/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
New York Bar No. 2657120

SIDNEY POWELL
Counsel of Record
Texas Bar No. 16209700

11

Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

Sidney Powell, P.C.
2911 Turtle Creek Blvd., Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com

HARRY W. MACDOUGALD
Georgia Bar No. 463076
Caldwell, Propst & DeLoach, LLP
Two Ravinia Drive, Ste 1600
Atlanta, Georgia 30346
(404) 843-1956
hmacdougald@cpdlawyers.com

Of Counsel
JULIA Z. HALLER
BRANDON JOHNSON
EMILY P. NEWMAN

L. LIN WOOD
Georgia Bar No. 774588
L. LIN WOOD, P.C.
P.O. Box 52584
Atlanta, GA 30305-0584
(404) 891-1402
Date: December 15, 2020
CERTIFICATE OF COMPLIANCE
The attached Notice of Supplemental Authority complies with the typevolume limitation. As required by Supreme Court Rule 33.1(h), I certify that the
document contains 2803 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Respectfully submitted,
/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
Attorney for Plaintiff/Petitioners
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
Date: December 15, 2020

12

Exh. A
Interim Report of Antrim County, Michigan
Forensic Examination of Dominion Voting
Systems Equipment

Allied Security Operations Group
Antrim Michigan Forensics Report
REVISED PRELIMINARY SUMMARY, v2
Report Date 12/13/2020
Client:

Bill Bailey

Attorney:

Matthew DePerno

A.

WHO WE ARE

1.

My name is Russell James Ramsland, Jr., and I am a resident of Dallas County,
Texas. I hold an MBA from Harvard University, and a political science degree
from Duke University. I have worked with the National Aeronautics and Space
Administration (NASA) and the Massachusetts Institute of Technology (MIT),
among other organizations, and have run businesses all over the world, many of
which are highly technical in nature. I have served on technical government
panels.

2.

I am part of the management team of Allied Security Operations Group, LLC,
(ASOG). ASOG is a group of globally engaged professionals who come from
various disciplines to include Department of Defense, Secret Service,
Department of Homeland Security, and the Central Intelligence Agency. It
provides a range of security services, but has a particular emphasis on
cybersecurity, open source investigation and penetration testing of networks. We
employ a wide variety of cyber and cyber forensic analysts. We have patents
pending in a variety of applications from novel network security applications to
SCADA (Supervisory Control and Data Acquisition) protection and safe browsing
solutions for the dark and deep web. For this report, I have relied on these
experts and resources.

B.

PURPOSE AND PRELIMINARY CONCLUSIONS

1.

The purpose of this forensic audit is to test the integrity of Dominion Voting
System in how it performed in Antrim County, Michigan for the 2020 election.

2.

We conclude that the Dominion Voting System is intentionally and purposefully
designed with inherent errors to create systemic fraud and influence election
results. The system intentionally generates an enormously high number of ballot
errors. The electronic ballots are then transferred for adjudication. The intentional
errors lead to bulk adjudication of ballots with no oversight, no transparency, and
no audit trail. This leads to voter or election fraud. Based on our study, we
conclude that The Dominion Voting System should not be used in Michigan. We
further conclude that the results of Antrim County should not have been certified.
1

3.

The following is a breakdown of the votes tabulated for the 2020 election in
Antrim County, showing different dates for the tabulation of the same votes.
TOTAL
VOTES
Write-In
for
President

Date

Registered
Voters

Total
Votes
Cast

Biden

Trump

Third
Party

Nov 3

22,082

16,047

7,769

4,509

145

14

12,423

Nov 5

22,082

18,059

7,289

9,783

255

20

17,327

Nov 21

22,082

16,044

5,960

9,748

241

23

15,949

4.

The Antrim County Clerk and Secretary of State Jocelyn Benson have stated that
the election night error (detailed above by the vote "flip" from Trump to Biden,
was the result of human error caused by the failure to update the Mancelona
Township tabulator prior to election night for a down ballot race. We disagree and
conclude that the vote flip occurred because of machine error built into the voting
software designed to create error.

5.

Secretary of State Jocelyn Benson's statement on November 6, 2020 that "[t]the
correct results always were and continue to be reflected on the tabulator totals
tape . . . ." was false.

6.

The allowable election error rate established by the Federal Election Commission
guidelines is of 1 in 250,000 ballots (.0008%). We observed an error rate of
68.05%. This demonstrated a significant and fatal error in security and election
integrity.

7.

The results of the Antrim County 2020 election are not certifiable. This is a result
of machine and/or software error, not human error.

8.

The tabulation log for the forensic examination of the server for Antrim County
from December 6, 2020consists of 15,676 individual events, of which 10,667 or
68.05% of the events were recorded errors. These errors resulted in overall
tabulation errors or ballots being sent to adjudication. This high error rates proves
the Dominion Voting System is flawed and does not meet state or federal
election laws.

9.

These errors occurred after The Antrim County Clerk provided a re-provisioned
CF card with uploaded software for the Central Lake Precinct on November 6,
2020. This means the statement by Secretary Benson was false. The Dominion
Voting System produced systemic errors and high error rates both prior to the
update and after the update; meaning the update (or lack of update) is not the
cause of errors.

2

10.

In Central Lake Township there were 1,222 ballots reversed out of 1,491 total
ballots cast, resulting in an 81.96% rejection rate. All reversed ballots are sent to
adjudication for a decision by election personnel.

11.

It is critical to understand that the Dominion system classifies ballots into two
categories, 1) normal ballots and 2) adjudicated ballots. Ballots sent to
adjudication can be altered by administrators, and adjudication files can be
moved between different Results Tally and Reporting (RTR) terminals with no
audit trail of which administrator actually adjudicates (i.e. votes) the ballot batch.
This demonstrated a significant and fatal error in security and election integrity
because it provides no meaningful observation of the adjudication process or
audit trail of which administrator actually adjudicated the ballots.

12.

A staggering number of votes required adjudication. This was a 2020 issue not
seen in previous election cycles still stored on the server. This is caused by
intentional errors in the system. The intentional errors lead to bulk adjudication of
ballots with no oversight, no transparency or audit trail. Our examination of the
server logs indicates that this high error rate was incongruent with patterns from
previous years. The statement attributing these issues to human error is not
consistent with the forensic evaluation, which points more correctly to systemic
machine and/or software errors. The systemic errors are intentionally designed to
create errors in order to push a high volume of ballots to bulk adjudication.

13.

The linked video demonstrates how to cheat at adjudication:
https://mobile.twitter.com/KanekoaTheGreat/status/1336888454538428418

14.

Antrim County failed to properly update its system. A purposeful lack of providing
basic computer security updates in the system software and hardware
demonstrates incompetence, gross negligence, bad faith, and/or willful noncompliance in providing the fundamental system security required by federal and
state law. There is no way this election management system could have passed
tests or have been legally certified to conduct the 2020 elections in Michigan
under the current laws. According to the National Conference of State
Legislatures – Michigan requires full compliance with federal standards as
determined by a federally accredited voting system laboratory.

15.

Significantly, the computer system shows vote adjudication logs for prior years;
but all adjudication log entries for the 2020 election cycle are missing. The
adjudication process is the simplest way to manually manipulate votes. The lack
of records prevents any form of audit accountability, and their conspicuous
absence is extremely suspicious since the files exist for previous years using the
same software. Removal of these files violates state law and prevents a
meaningful audit, even if the Secretary wanted to conduct an audit. We must
conclude that the 2020 election cycle records have been manually removed.

3

16.

Likewise, all server security logs prior to 11:03 pm on November 4, 2020 are
missing. This means that all security logs for the day after the election, on
election day, and prior to election day are gone. Security logs are very important
to an audit trail, forensics, and for detecting advanced persistent threats and
outside attacks, especially on systems with outdated system files. These logs
would contain domain controls, authentication failures, error codes, times users
logged on and off, network connections to file servers between file accesses,
internet connections, times, and data transfers. Other server logs before
November 4, 2020 are present; therefore, there is no reasonable explanation for
the security logs to be missing.

17.

On November 21, 2020, an unauthorized user unsuccessfully attempted to zero
out election results. This demonstrates additional tampering with data.

18.

The Election Event Designer Log shows that Dominion ImageCast Precinct
Cards were programmed with new ballot programming on 10/23/2020 and then
again after the election on 11/05/2020. These system changes affect how ballots
are read and tabulated, and our examination demonstrated a significant change
in voter results using the two different programs. In accordance with the Help
America Vote Act, this violates the 90-day Safe Harbor Period which prohibits
changes to election systems, registries, hardware/software updates without
undergoing re-certification. According to the National Conference of State
Legislatures – Michigan requires full compliance with federal standards as
determined by a federally accredited voting system laboratory.

19.

The only reason to change software after the election would be to obfuscate
evidence of fraud and/or to correct program errors that would de-certify the
election. Our findings show that the Central Lake Township tabulator tape totals
were significantly altered by utilizing two different program versions (10/23/2020
and 11/05/2020), both of which were software changes during an election which
violates election law, and not just human error associated with the Dominion
Election Management System. This is clear evidence of software generated
movement of votes. The claims made on the Office of the Secretary of State
website are false.

20.

The Dominion ImageCast Precinct (ICP) machines have the ability to be
connected to the internet (see Image 11). By connecting a network scanner to
the ethernet port on the ICP machine and creating Packet Capture logs from the
machines we examined show the ability to connect to the network, Application
Programming Interface (API) (a data exchange between two different systems)
calls and web (http) connections to the Election Management System server.
Best practice is to disable the network interface card to avoid connection to the
internet. This demonstrated a significant and fatal error in security and election
integrity. Because certain files have been deleted, we have not yet found origin
or destination; but our research continues.

4

21.

Because the intentional high error rate generates large numbers of ballots to be
adjudicated by election personnel, we must deduce that bulk adjudication
occurred. However, because files and adjudication logs are missing, we have not
yet determined where the bulk adjudication occurred or who was responsible for
it. Our research continues.

22.

Research is ongoing. However, based on the preliminary results, we conclude
that the errors are so significant that they call into question the integrity and
legitimacy of the results in the Antrim County 2020 election to the point that the
results are not certifiable. Because the same machines and software are used in
48 other counties in Michigan, this casts doubt on the integrity of the entire
election in the state of Michigan.

23.

DNI Responsibilities: President Obama signed Executive Order on National
Critical Infrastructure on 6 January 2017, stating in Section 1. Cybersecurity of
Federal Networks, "The Executive Branch operates its information technology
(IT) on behalf of the American people. The President will hold heads of executive
departments and agencies (agency heads) accountable for managing
cybersecurity risk to their enterprises. In addition, because risk management
decisions made by agency heads can affect the risk to the executive branch as a
whole, and to national security, it is also the policy of the United States to
manage cybersecurity risk as an executive branch enterprise." President
Obama's EO further stated, effective immediately, each agency head shall use
The Framework for Improving Critical Infrastructure Cybersecurity (the
Framework) developed by the National Institute of Standards and Technology."
Support to Critical Infrastructure at Greatest Risk. The Secretary of Homeland
Security, in coordination with the Secretary of Defense, the Attorney General, the
Director of National Intelligence, the Director of the Federal Bureau of
Investigation, the heads of appropriate sector-specific agencies, as defined in
Presidential Policy Directive 21 of February 12, 2013 (Critical Infrastructure
Security and Resilience) (sector-specific agencies), and all other appropriate
agency heads, as identified by the Secretary of Homeland Security, shall: (i)
identify authorities and capabilities that agencies could employ to support the
cybersecurity efforts of critical infrastructure entities identified pursuant to section
9 of Executive Order 13636 of February 12, 2013 (Improving Critical
Infrastructure Cybersecurity), to be at greatest risk of attacks that could
reasonably result in catastrophic regional or national effects on public health or
safety, economic security, or national security (section 9 entities);
This is a national security imperative. In July 2018, President Trump
strengthened President Obama’s Executive Order to include requirements
to ensure US election systems, processes, and its people were not
manipulated by foreign meddling, either through electronic or systemic
manipulation, social media, or physical changes made in hardware,
software, or supporting systems. The 2018 Executive Order. Accordingly, I
hereby order:

5

Section 1. (a) Not later than 45 days after the conclusion of a United States
election, the Director of National Intelligence, in consultation with the heads of
any other appropriate executive departments and agencies (agencies), shall
conduct an assessment of any information indicating that a foreign government,
or any person acting as an agent of or on behalf of a foreign government, has
acted with the intent or purpose of interfering in that election. The assessment
shall identify, to the maximum extent ascertainable, the nature of any foreign
interference and any methods employed to execute it, the persons involved, and
the foreign government or governments that authorized, directed, sponsored, or
supported it. The Director of National Intelligence shall deliver this assessment
and appropriate supporting information to the President, the Secretary of State,
the Secretary of the Treasury, the Secretary of Defense, the Attorney General,
and the Secretary of Homeland Security.
We recommend that an independent group should be empaneled to determine
the extent of the adjudication errors throughout the State of Michigan. This is a
national security issue.
24.

Michigan resident Gustavo Delfino, a former professor of mathematics in
Venezuela and alumni of University of Michigan, offered a compelling affidavit
[Exhibit 2] recognizing the inherent vulnerabilities in the SmartMatic electronic
voting machines (software which was since incorporated into Dominion Voting
Systems) during the 2004 national referendum in Venezuela (see attached
declaration). After 4 years of research and 3 years of undergoing intensive peer
review, Professor Delfino’s paper was published in the highly respected
"Statistical Science" journal, November 2011 issue (Volume 26, Number 4) with
title "Analysis of the 2004 Venezuela Referendum: The Official Results Versus
the Petition Signatures." The intensive study used multiple mathematical
approaches to ascertain the voting results found in the 2004 Venezuelan
referendum. Delfino and his research partners discovered not only the algorithm
used to manipulate the results, but also the precise location in the election
processing sequence where vulnerability in machine processing would provide
such an opportunity. According to Prof Delfino, the magnitude of the difference
between the official and the true result in Venezuela estimated at 1,370,000
votes. Our investigation into the error rates and results of the Antrim County
voting tally reflect the same tactics, which have also been reported in other
Michigan counties as well. This demonstrates a national security issue.

C.

PROCESS
We visited Antrim County twice: November 27, 2020 and December 6, 2020.
On November 27, 2020, we visited Central Lake Township, Star Township, and
Mancelona Township. We examined the Dominion Voting Systems tabulators
and tabulator roles.

6

On December 6, 2020, we visited the Antrim County Clerk's office. We inspected
and performed forensic duplication of the following:
1.

Antrim County Election Management Server running Dominion
Democracy Suite 5.5.3-002;

2.

Compact Flash cards used by the local precincts in their Dominion
ImageCast Precinct;

3.

USB memory sticks used by the Dominion VAT (Voter Assist
Terminals); and

4.

USB memory sticks used for the Poll Book.

Dominion voting system is a Canadian owned company with global subsidiaries.
It is owned by Staple Street Capital which is in turn owned by UBS Securities
LLC, of which 3 out of their 7 board members are Chinese nationals. The
Dominion software is licensed from Smartmatic which is a Venezuelan owned
and controlled company. Dominion Server locations have been determined to be
in Serbia, Canada, the US, Spain and Germany.
D.

CENTRAL LAKE TOWNSHIP

1.

On November 27, 2020, part of our forensics team visited the Central Lake
Township in Michigan to inspect the Dominion ImageCast Precint for possible
hardware issues on behalf of a local lawsuit filed by Michigan attorney Matthew
DePerno on behalf of William Bailey. In our conversations with the clerk of
Central Lake Township Ms. Judith L. Kosloski, she presented to us "two
separate paper totals tape" from Tabulator ID 2.
•

One dated "Poll Opened Nov. 03/2020 06:38:48" (Roll 1);

•

Another dated "Poll Opened Nov. 06/2020 09:21:58" (Roll 2).

2.

We were then told by Ms. Kosloski that on November 5, 2020, Ms. Kosloski
was notified by Connie Wing of the County Clerk's Office and asked to bring the
tabulator and ballots to the County Clerk's office for re-tabulation. They ran the
ballots and printed "Roll 2". She noticed a difference in the votes and brought it
up to the clerk, but canvasing still occurred, and her objections were not
addressed.

3.

Our team analyzed both rolls and compared the results. Roll 1 had 1,494 total
votes a n d Roll 2 had 1,491 votes (Roll 2 had 3 less ballots because 3 ballots
were damaged in the process.)

4.

"Statement of Votes Cast from Antrim" shows that only 1,491 votes were
counted, and the 3 ballots that were damaged were not entered into final results.

7

5.

Ms. Kosloski stated that she and her assistant manually refilled out the three
ballots, curing them, and ran them through the ballot counting system - but the
final numbers do not reflect the inclusion of those 3 damaged ballots.

6.

This is the most preliminary report of serious election fraud indicators. In
comparing the numbers on both rolls, we estimate 1,474 votes changed
across the two rolls, between the first and the second time the exact same ballots
were run through the County Clerk’s vote counting machine - which is almost the
same number of voters that voted in total.
•

742 votes were added to School Board Member for Central Lake
Schools (3)

•

657 votes were removed from School Board Member for Ellsworth
Schools (2)

•

7 votes were added to the total for State Proposal 20-1 (1) and out of
those there were 611 votes moved between the Yes and No Categories.

7.

There were incremental changes throughout the rolls with some significant
adjustments between the 2 rolls that were reviewed. This demonstrates
conclusively that votes can be and were changed during the second machine
count after the software update. That should be impossible especially at such a
high percentage to total votes cast.

8.

For the School Board Member for Central Lake Schools (3) [Image 1] there
were 742 votes added to this vote total. Since multiple people were elected, this
did not change the result of both candidates being elected, but one does see a
change in who had most votes. If it were a single-person election this would
have changed the outcome and demonstrates conclusively that votes can be and
were changed during the second machine counting. That should be impossible.
[Image 1]:

8

9.

For the School Board Member for Ellsworth Schools (2) [Image 2]
•

Shows 657 votes being removed from this election.

•

In this case, only 3 people who were eligible to vote actually voted.
Since there were 2 votes allowed for each voter to cast.

•

The recount correctly shows 6 votes.

But on election night, there was a major calculation issue:
[Image 2]:

10.

In State Proposal 20-1 (1), [Image 3] there is a major change in votes in this
category.
•

There were 774 votes for YES during the election, to 1,083 votes
for YES on the recount a change of 309 votes.

•

7 votes were added to the total for State Proposal 20-1 (1) out of
those there were 611 votes moved between the Yes and No Categories.

[Image 3]:

9

11.

State Proposal 20-1 (1) is a fairly technical and complicated proposed
amendment to the Michigan Constitution to change the disposition and allowable
uses of future revenue generated from oil and gas bonuses, rentals and royalties
from
state-owned
land.
Information
about
the
proposal:
https://crcmich.org/publications/statewide-ballot- proposal-20-1-michigan-naturalresources-trust-fund

12.

A Proposed Initiated Ordinance to Authorize One (1) Marihuana (sic) Retailer
Establishment Within the Village of Central Lake (1). [Image 4]
•

On election night, it was a tie vote.

•

Then, on the rerun of ballots 3 ballots were destroyed, but only one vote
changed on the totals to allow the proposal to pass.

When 3 ballots were not counted and programming change on the
tabulator was installed the proposal passed with 1 vote being removed from
the No vote.
[Image 4]:

10

13.

On Sunday December 6, 2020, our forensics team visited the Antrim County
Clerk. There were two USB memory sticks used, one contained the software
package used to tabulate election results on November 3, 2020, and the other
was programmed on November 6, 2020 with a different software package which
yielded significantly different voting outcomes. The election data package is used
by the Dominion Democracy Suite software & election management system
software to upload programming information onto the Compact Flash Cards for
the Dominion ImageCast Precinct to enable it to calculate ballot totals.

14.

This software programming should be standard across all voting machines
systems for the duration of the entire election if accurate tabulation is the
expected outcome as required by US Election Law. This intentional difference in
software programming is a design feature to alter election outcomes.

15.

The election day outcomes were calculated using the original software
programming on November 3, 2020. On November 5, 2020 the township clerk
was asked to re-run the Central Lake Township ballots and was given no
explanation for this unusual request. On November 6, 2020 the Antrim County
Clerk, Sheryl Guy issued the second version of software to re-run the same
Central Lake Township ballots and oversaw the process. This resulted in greater
than a 60% change in voting results, inexplicably impacting every single election
contest in a township with less than 1500 voters. These errors far exceed the
ballot error rate standard of 1 in 250,000 ballots (.0008%) as required by federal
election law.
•

The original election programming files are last dated 09/25/2020 1:24pm

•

The updated election data package files are last dated 10/22/2020 10:27 am.

11

16.

As the tabulator tape totals prove, there were large numbers of votes switched
from the November 3, 2020 tape to the November 6, 2020 tape. This was solely
based on using different software versions of the operating program to calculate
votes, not tabulate votes. This is evidenced by using same the Dominion System
with two different software program versions contained on the two different USB
Memory Devices.

17.

The Help America Vote Act, Safe Harbor provides a 90-day period prior to
elections where no changes can be made to election systems. To make changes
would require recertification of the entire system for use in the election. The
Dominion User Guide prescribes the proper procedure to test machines with test
ballots to compare the results to validate machine functionality to determine if the
Dominion ImageCast Precinct was programmed correctly. If this occurred a
ballot misconfiguration would have been identified. Once the software was
updated to the 10/22/2020 software the test ballots should have been re-run to
validate the vote totals to confirm the machine was configured correctly.

18.

The November 6, 2020 note from The Office of the Secretary of State Jocelyn
Benson states: "The correct results always were and continue to be reflected on
the tabulator totals tape and on the ballots themselves. Even if the error in the
reported unofficial results had not been quickly noticed, it would have been
identified during the county canvass. Boards of County Canvassers, which are
composed of 2 Democrats and 2 Republicans, review the printed totals tape from
each tabulator during the canvass to verify the reported vote totals are correct."
•

Source: https://www.michigan.gov/sos/0,4670,7-127-1640_9150-544676-,00.html

19.

The Secretary of State Jocelyn Benson's statement is false. Our findings show
that the tabulator tape totals were significantly altered by utilization of two
different program versions, and not just the Dominion Election Management
System. This is the opposite of the claim that the Office of the Secretary of
State made on its website. The fact that these significant errors were not caught
in ballot testing and not caught by the local county clerk shows that there are
major inherent built-in vulnerabilities and process flaws in the Dominion
Election Management System, and that other townships/precincts and the
entire election have been affected.

20.

On Sunday December 6, 2020, our forensics team visited the Antrim County
Clerk office to perform forensic duplication of the Antrim County Election
Management Server running Dominion Democracy Suite 5.5.3-002.

21.

Forensic copies of the Compact Flash cards used by the local precincts in their
Dominion ImageCast Precinct were inspected, USB memory sticks used by
the Dominion VAT (Voter Assist Terminals) and the USB memory sticks used
for the Poll Book were forensically duplicated.

12

22.

We have been told that the ballot design and configuration for the Dominion
ImageCast Precinct and VAT were provided by ElectionSource.com which is
which is owned by MC&E, Inc of Grand Rapids, MI.

E.

MANCELONA TOWNSHIP

1.

In Mancelona township, problems with software versions were also known to
have been present.
Mancelona elections officials understood that ballot
processing issued were not accurate and used the second version of software to
process votes on 4 November, again an election de-certifying event, as no
changes to the election system are authorized by law in the 90 days preceding
elections without re-certification.

2.

Once the 10/22/2020 software update was performed on the Dominion
ImageCast Precinct the test ballot process should have been performed to
validate the programming. There is no indication that this procedure was
performed.

F.

ANTRIM COUNTY CLERK'S OFFICE

1.

Pursuant to a court ordered inspection, we participated in an onsite collection
effort at the Antrim County Clerk's office on December 6, 2020. [Image 5]:

Among other items forensically collected, the Antrim County Election
Management Server (EMS) with Democracy Suite was forensically collected.
[Images 6 and 7].

13

The EMS (Election Management Server) was a:
Dell Precision Tower 3420.
Service Tag: 6NB0KH2
The EMS contained 2 hard drives in a RAID-1 configuration. That is the 2 drives
redundantly stored the same information and the server could continue to
operate if either of the 2 hard drives failed. The EMS was booted via the Linux
Boot USB memory sticks and both hard drives were forensically imaged.
At the onset of the collection process we observed that the initial program thumb
drive was not secured in the vault with the CF cards and other thumbdrives. We
watched as the County employees, including Clerk Sheryl Guy searched
throughout the office for the missing thumb drive. Eventually they found the
missing thumb drive in an unsecured and unlocked desk drawer along with
multiple other random thumb drives. This demonstrated a significant and fatal
error in security and election integrity.
G.

FORENSIC COLLECTION
We used a built for purpose Linux Boot USB memory stick to boot the EMS in a
forensically sound mode. We then used Ewfacquire to make a forensic image of
the 2 independent internal hard drives.
Ewfacquire created an E01 file format forensic image with built-in integrity
verification via MD5 hash.
We used Ewfverify to verify the forensic image acquired was a true and accurate
copy of the original disk. That was done for both forensic images.

H.

ANALYSIS TOOLS

14

X-Ways Forensics: We used X-Ways Forensics, a commercial Computer
Forensic tool, to verify the image was useable and full disk encryption was not in
use. In particular we confirmed that Bit locker was not in use on the EMS.
Other tools used: PassMark – OSForensics, Truxton - Forensics, Cellebrite –
Physical Analyzer, Blackbag-Blacklight Forensic Software, Microsoft SQL Server
Management Studio, Virtual Box, and miscellaneous other tools and scripts.
I.

SERVER OVERVIEW AND SUMMARY

1.

Our initial audit on the computer running the Democracy Suite Software showed
that standard computer security best practices were not applied. These
minimum-security standards are outlined the 2002 HAVA, and FEC Voting
System Standards – it did not even meet the minimum standards required of a
government desktop computer.

2.

The election data software package USB drives (November 2020 election, and
November 2020 election updated) are secured with bitlocker encryption software,
but they were not stored securely on-site. At the time of our forensic examination,
the election data package files were already moved to an unsecure desktop
computer and were residing on an unencrypted hard drive. This demonstrated a
significant and fatal error in security and election integrity. Key Findings on
Desktop and Server Configuration: - There were multiple Microsoft security
updates as well as Microsoft SQL Server updates which should have been
deployed, however there is no evidence that these security patches were ever
installed. As described below, many of the software packages were out of date
and vulnerable to various methods of attack.
a)

Computer initial configuration on 10/03/2018 13:08:11:911

b)

Computer final configuration of server software on 4/10/2019

c)

Hard Drive not Encrypted at Rest

d)

Microsoft SQL Server Database not protected with password.

e)

Democracy Suite Admin Passwords are reused and share passwords.

f)

Antivirus is 4.5 years outdated

g)

Windows updates are 3.86 years out of date.

h)

When computer was last configured on 04/10/2019 the windows updates
were 2.11 years out of date.

i)

User of computer uses a Super User Account.

15

3.

The hard drive was not encrypted at rest – which means that if hard drives are
removed or initially booted off an external USB drive the files are susceptible to
manipulation directly. An attacker is able to mount the hard drive because it is
unencrypted, allowing for the manipulation and replacement of any file on the
system.

4.

The Microsoft SQL Server database files were not properly secured to allow
modifications of the database files.

5.

The Democracy Suite Software user account logins and passwords are stored in
the unsecured database tables and the multiple Election System Administrator
accounts share the same password, which means that there are no audit trails
for vote changes, deletions, blank ballot voting, or batch vote alterations or
adjudication.

6.

Antivirus definition is 1666 days old on 12/11/2020. Antrim County updates its
system with USB drives. USB drives are the most common vectors for injecting
malware into computer systems. The failure to properly update the antivirus
definition drastically increases the harm cause by malware from other machines
being transmitted to the voting system.

7.

Windows Server Update Services (WSUS) Offline Update is used to enable
updates the computer – which is a package of files normally downloaded from
the internet but compiled into a program to put on a USB drive to manually
update server systems.

8.

Failure to properly update the voting system demonstrates a significant and fatal
error in security and election integrity.

9.

There are 15 additional updates that should have been installed on the server to
adhere to Microsoft Standards to fix known vulnerabilities. For the 4/10/2019
install, the most updated version of the update files would have been 03/13/2019
which is 11.6.1 which is 15 updates newer than 10.9.1
This means the updates installed were 2 years, 1 month, 13 days behind
the most current update at the time. This includes security updates and
fixes. This demonstrated a significant and fatal error in security and
election integrity.
•

Wed 04/10/2019 10:34:33.14 - Info: Starting WSUS Offline Update (v.
10.9.1)

•

Wed
04/10/2019
10:34:33.14
Info:
Used
path
"D:\WSUSOFFLINE1091_2012R2_W10\cmd\" on EMSSERVER (user:
EMSADMIN)

•

Wed 04/10/2019 10:34:35.55 - Info: Medium build date: 03/10/2019

16

•

Found on c:\Windows\wsusofflineupdate.txt

•

*WSUS Offline Update (v.10.9.1) was created on 01/29/2017

*WSUS information found here https://download.wsusoffline.net/
10.

Super User Administrator account is the primary account used to operate the
Dominion Election Management System which is a major security risk. The
user logged in has the ability to make major changes to the system and install
software which means that there is no oversight to ensure appropriate
management controls – i.e. anyone who has access to the shared administrator
user names and passwords can make significant changes to the entire voting
system. The shared usernames and passwords mean that these changes can
be made in an anonymous fashion with no tracking or attribution.

J.

ERROR RATES

1.

We reviewed the Tabulation logs in their entirety for 11/6/2020. The election logs
for Antrim County consist of 15,676 total lines or events.

2.

•

Of the 15,676 there were a total of 10,667 critical errors/warnings or a
68.05% error rate.

•

Most of the errors were related to configuration errors that could result in
overall tabulation errors or adjudication. These 11/6/2020 tabulation totals
were used as the official results.

For examples, there were 1,222 ballots reversed out of 1,491 total ballots cast,
thus resulting in an 81.96% rejection rate. Some of which were reversed due to
"Ballot's size exceeds maximum expected ballot size".
•

According to the NCSL, Michigan requires testing by a federally accredited
laboratory for voting systems. In section 4.1.1 of the Voluntary Voting
Systems Guidelines (VVSG) Accuracy Requirements a. All systems shall
achieve a report total error rate of no more than one in 125,000.

•

https://www.eac.gov/sites/default/files/eac_assets/1/28/VVSG.1.1.V
OL.1.FINAL1.pdf

•

In section 4.1.3.2 Memory Stability of the VVSG it states that Memory
devices used to retain election management data shall have
demonstrated error free data retention for a period of 22 months.

•

In section 4.1.6.1 Paper-based System Processing Requirements subsection a. of the VVSG it states "The ability of the system to produce and
receive electronic signals from the scanning of the ballot, perform logical
and numerical operations upon these data, and reproduce the contents of
memory when required shall be sufficiently free of error to enable
17

satisfaction of the system-level accuracy requirement indicated in
Subsection 4.1.1."
•

These are not human errors; this is definitively related to the software and
software configurations resulting in error rates far beyond the thresholds
listed in the guidelines.

3.

A high "error rate" in the election software (in this case 68.05%) reflects an
algorithm used that will weight one candidate greater than another (for instance,
weight a specific candidate at a 2/3 to approximately 1/3 ratio). In the logs we
identified that the RCV or Ranked Choice Voting Algorithm was enabled (see
image below from the Dominion manual). This allows the user to apply a
weighted numerical value to candidates and change the overall result. The
declaration of winners can be done on a basis of points, not votes. [Image 8]:

4.

The Dominion software configuration logs in the Divert Options, shows that all
write-in ballots were flagged to be diverted automatically for adjudication. This
means that all write-in ballots were sent for "adjudication" by a poll worker or
election official to process the ballot based on voter "intent". Adjudication files
allow a computer operator to decide to whom to award those votes (or to trash
them).

5.

In the logs all but two of the Override Options were enabled on these machines,
thus allowing any operator to change those votes. [Image 9]:

18

6.

In the logs all but two of the Override Options were enabled on these machines,
thus allowing any operator to change those votes. This gives the system
operators carte blanche to adjudicate ballots, in this case 81.96% of the total cast
ballots with no audit trail or oversight. [Image 10]:

7.

On 12/8/2020 Microsoft issued 58 security patches across 10+ products, some of
which were used for the election software machine, server and programs. Of the
58 security fixes 22, were patches to remote code execution (RCE)
vulnerabilities. [Image 11]:

19

8.

We reviewed the Election Management System logs (EmsLogger) in their
entirety from 9/19/2020 through 11/21/2020 for the Project: Antrim November
2020. There were configuration errors throughout the set-up, election and
tabulation of results. The last error for Central Lake Township, Precinct 1
occurred
on
11/21/2020
at
14:35:11
System.Xml.XmlException
System.Xml.XmlException: The ' ' character, hexadecimal value 0x20, cannot be
included in a name. Bottom line is that this is a calibration that rejects the vote
(see picture below). [Image 12]:

20

Notably 42 minutes earlier on Nov 21 2020 at 13:53:09 a user attempted to
zero out election results. Id:3168 EmsLogger - There is no permission to {0}
- Project: User: Thread: 189. This is direct proof of an attempt to tamper
with evidence.

9.

The Election Event Designer Log shows that Dominion ImageCast Precinct
Cards were programmed with updated new programming on 10/23/2020 and
again after the election on 11/05/2020. As previously mentioned, this violates the
HAVA safe harbor period.
Source: C:\Program Files\Dominion Voting Systems\Election Event
Designer\Log\Info.txt
•

Dominion Imagecast Precinct Cards Programmed with 9/25/2020
programming on 09/29/2020, 09/30/2020, and 10/12/2020.

•

Dominion Imagecast Precinct Cards Programmed with New Ballot
Programming dated 10/22/2020 on 10/23/2020 and after the election on
11/05/2020

Excerpt from 2020-11-05 showing “ProgramMemoryCard” commands.

21

10.

Analysis is ongoing and updated findings will be submitted as soon as possible.
A summary of the information collected is provided below.
10|12/07/20 18:52:30| Indexing completed at Mon Dec 7 18:52:30 2020
12|12/07/20 18:52:30| INDEX SUMMARY
12|12/07/20 18:52:30| Files indexed: 159312
22

12|12/07/20 18:52:30| Files skipped: 64799
12|12/07/20 18:52:30| Files filtered: 0
12|12/07/20 18:52:30| Emails indexed: 0
12|12/07/20 18:52:30| Unique words found: 5325413
12|12/07/20 18:52:30| Variant words found: 3597634
12|12/07/20 18:52:30| Total words found: 239446085
12|12/07/20 18:52:30| Avg. unique words per page: 33.43
12|12/07/20 18:52:30| Avg. words per page: 1503
12|12/07/20 18:52:30| Peak physical memory used: 2949 MB
12|12/07/20 18:52:30| Peak virtual memory used: 8784 MB
12|12/07/20 18:52:30| Errors: 10149
12|12/07/20 18:52:30| Total bytes scanned/downloaded: 1919289906

Dated: December 13, 2020
_____________________________________
Russell Ramsland

23

